APPENDIX TABLE OF CONTENTS
Opinion of the United States Court of Appeals for
the Ninth Circuit (August 19, 2019) .................. 1a
Order Re Defendants’ Motion for Summary
Judgment [57] and Plaintiffs’ Motion for
Partial Summary Judgment [61]
(September 5, 2017).......................................... 12a
Order of the United States Court of Appeals for
the Ninth Circuit Denying Petition for
Rehearing En Banc (September 27, 2019) ...... 43a

Pet. App. 1a
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT
(AUGUST 19, 2019)
934 F.3d 1076 (9th Cir. 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
CHEMEHUEVI INDIAN TRIBE, on its Own Behalf
and on Behalf of its Members Parens Patrie [sic];
CHELSEA LYNN BUNIM; TOMMIE ROBERT
OCHOA; JASMINE SANSOUCIE; NAOMI LOPEZ,

Plaintiffs-Appellants,
v.
JOHN MCMAHON, in His Official Capacity as
Sheriff of San Bernardino County;
RONALD SINDELAR, in His Official Capacity as
Deputy Sheriff for San Bernardino County,

Defendants-Appellees.

________________________
No. 17-56791

D.C. No. 5:15-cv-01538-DMG-FFM
Appeal from the United States District Court
for the Central District of California
Dolly M. Gee, District Judge, Presiding

Pet. App. 2a
Before: Kim McLANE WARDLAW and
Andrew D. HURWITZ, Circuit Judges,
and Edward R. KORMAN, District Judge.
HURWITZ, Circuit Judge:
In 2015, San Bernardino County Sheriff’s Deputies
cited four enrolled members of the Chemehuevi Indian
Tribe for violating California regulatory traffic laws.
Two of the Tribe’s members were cited on Section 36
of Township 5 North, Range 24 East (“Section 36”), a
one square mile plot the Tribe claims is part of its
Reservation; two were cited elsewhere on the Reservation.
It is undisputed that the Sheriff cannot enforce
regulatory traffic laws in “Indian country.” See 18
U.S.C. § 1162; 28 U.S.C. § 1360. “Indian country”
includes, but is not limited to, land within the boundaries of a reservation. 18 U.S.C. § 1151. The issues for
decision today are (1) whether the individual Tribe
members and the Tribe can challenge the citations
through a 42 U.S.C. § 1983 action; and, if so, (2)
whether Section 36 is Indian country. We hold that
the individual plaintiffs, but not the Tribe, can challenge the citations under § 1983. And, we conclude
that all the citations occurred within Indian country.
We therefore vacate the district court’s judgment
dismissing the complaint as to the individuals but
affirm the judgment as to the Tribe.

 The Honorable Edward R. Korman, United States District Judge
for the Eastern District of New York, sitting by designation.

Pet. App. 3a
I. BACKGROUND
A.

Facts.

Chelsea Lynn Bunim, Jasmine Sansoucie, Tommie
Robert Ochoa, and Naomi Lopez are enrolled members
of the Chemehuevi Tribe. Each was stopped and cited
by a San Bernardino County Sheriff’s Deputy for
violating a California regulatory traffic law. Deputy
Sheriff Ronald Sindelar stopped and cited Bunim on
Section 36 for driving without a valid registration.
Sindelar impounded Bunim’s car, leaving her alone
on the roadside. Deputy Sindelar also stopped Sansoucie
on Section 36, citing her for driving with a suspended
license.
Deputy Sindelar cited Ochoa for driving without
a valid registration and failing to provide evidence of
financial responsibility. Sindelar had Ochoa’s car
towed, leaving him alone on the roadside. Deputy
Sheriff J. Wagner cited Lopez for driving without a
valid registration. Both of these citations were issued
at locations that the parties agree are inside the
boundaries of the Chemehuevi Reservation.
Bunim, Sansoucie, Ochoa, Lopez, and the Tribe
sued the Sheriff and the Deputies under 42 U.S.C.
§ 1983, alleging violations of various federal statutory
and constitutional rights. The complaint sought monetary damages, a declaratory judgment, and injunctive
relief. The defendants argued that none of the plaintiffs’
claims was cognizable under § 1983. In addition, in
response to the claims raised by Bunim and Sansoucie,
the defendants argued that Section 36 was outside
the Reservation boundaries, and therefore within the
County’s regulatory jurisdiction.

Pet. App. 4a
B.

Procedural History.

The district court initially entered a preliminary
injunction prohibiting the defendants from “citing,
arresting, impounding the vehicles of, and prosecuting
Chemehuevi tribal members for on-reservation violations” of California regulatory vehicle laws, including
violations occurring on Section 36. The court determined
there were “at least serious questions going to the
merits” of whether Section 36 was “Indian country.”
But, the court later granted summary judgment
to the defendants, concluding that Section 36 was not
part of the Chemehuevi Reservation and therefore not
Indian country under 18 U.S.C. § 1151(a). In a motion
to amend the judgment, Ochoa and Lopez noted that
they were not ticketed in Section 36. The district court
denied the motion, holding that even if the plaintiffs
were cited on the Reservation, they failed to allege “a
well-established constitutional violation for purposes
of their section 1983 claim.” The court reasoned that
§ 1983 “is concerned with the relationship between
individuals and the state, not the distribution of
power between state, federal, or tribal governments,”
and therefore neither the “right to be free of state
regulation” nor “the right to tribal government” is
“within the scope of section 1983.”1
The Tribe and the individual plaintiffs timely
appealed. We have jurisdiction of that appeal under
1 The complaint also alleged that the citations “constitute[d] racial
discrimination in direct violation” of the Equal Protection Clause.
The district court held that “the specter of racial animus” was not
“sufficient to create a triable issue of fact that Defendants violated”
the Fourteenth Amendment. The plaintiffs do not challenge that
ruling on appeal.

Pet. App. 5a
28 U.S.C. § 1291 and review the summary judgment de
novo. Parravano v. Babbitt, 70 F.3d 539, 543 (9th Cir.
1995).
II. DISCUSSION
A.

Is Section 36 Indian Country?

We turn first to the question whether Section 36
is in the Chemehuevi Reservation, and thus Indian
country under 18 U.S.C. § 1151(a). But it is important
also to note at the outset what issues are not before
us. We need not—and do not—decide today who holds
title to Section 36. Indian country includes “all land
within the limits of any Indian reservation . . . notwithstanding the issuance of any patent.” 18 U.S.C.
§ 1151(a). “[A]djudicating reservation boundaries is
conceptually quite distinct from adjudicating title to
the same lands. One inquiry does not necessarily
have anything in common with the other, as title and
reservation status are not congruent concepts in
Indian law.” Navajo Tribe of Indians v. New Mexico,
809 F.2d 1455, 1475 (10th Cir. 1987) (internal quotation
marks and footnote omitted); see Solem v. Bartlett,
465 U.S. 463, 466-68 (1984).
Our inquiry as to the reservation status of Section
36 begins in 1853. After California gained statehood,
Congress ordered a survey of its public lands and
granted the State title to sections 16 and 36 of each
township.2 Act of March 3, 1853, ch. 145, 10 Stat.
244, 245-46. But, the 1853 Act specifically excluded
2 See U.S. Geological Survey, The Public Land Survey System, The
National Map Small Scale (Jan. 18, 2018), https://nationalmap.
gov/small_scale/a_plss.html (explaining township, range, and
section designations).

Pet. App. 6a
from that grant any land “in the occupation or
possession of any Indian tribe.” Id. at 246-47. The
Surveyor General approved a survey of the land at
issue in this case in 1895.
While that survey was being conducted, Congress
ordered the Secretary of the Interior “to select a
reservation” for each California Mission Indian tribe.
Mission Indian Relief Act, ch. 65, 26 Stat. 712, 712
(1891). The reservations were to “include, as far as
practicable, the lands and villages which have been
in the actual occupation and possession of said Indians.”
Id. Although the Secretary was also instructed to
“cause a patent to issue for each” reservation, and
thus transfer title to the land to the United States as
trustee for the tribes, the Act provided that the
reservations would be “valid when approved by the
[Executive Branch].” Id. In 1905, Congress authorized
the Secretary “to investigate through an inspector
. . . existing conditions of the California Indians and
to report to Congress at the next session some plan to
improve the same.” Act of March 3, 1905, ch. 1479, 33
Stat. 1048, 1058.
Special Agent C.E. Kelsey was then dispatched
to visit the Chemehuevi Tribe and identify territory
for a reservation. In 1907, Kelsey issued a report to
the Commissioner of Indian Affairs, identifying land
to be included in the reservation. He specifically recommended that the reservation include the eastern
half of Township 5 North, Range 24 East (“E. 1/2 of
T. 5 N., R. 24 E.”)— which contains Section 36. Kelsey
noted that this land was the “present location” of the
tribal members and that “there is no question but
they have occupied this land since primeval times.”

Pet. App. 7a
The Commissioner forwarded Kelsey’s recommendation
to the Secretary of the Interior.
In an executive order (the “1907 Order”), the
Secretary then “direct[ed] that the lands referred to”
by Kelsey and the Commissioner “be withdrawn from
all form of settlement,” and created the Chemehuevi
Reservation. The Secretary also asked Congress “to
authorize the addition of certain lands to the Mission
Indian Reservations.” Although Congress did not act
upon this proposed legislation, it subsequently recognized the existence of the Chemehuevi Reservation in
the Parker Dam Act, ch. 522, 54 Stat. 744 (1940).
It is clear that a Chemehuevi Reservation was
validly established by the Secretary’s 1907 Order,
notwithstanding the absence of subsequent Congressional approval. Indeed, the Supreme Court has
expressly so recognized:
Congress and the Executive have ever since
recognized these as Indian Reservations. . . .
They have been uniformly and universally
treated as reservations by map makers,
surveyors, and the public. We can give but
short shrift at this late date to the argument
that the reservations . . . are invalid because
they were originally set apart by the Executive.

Arizona v. California, 373 U.S. 546, 598 (1963); see also
id. at 596 & n.100.3
3 The defendants cite Arizona v. California, 460 U.S. 605, 636
n.26 (1983), for the proposition that “the secretarial orders do not
constitute ‘final determinations.’” But, “the secretarial orders” at
issue in that litigation were issued in the 1960s and 1970s. See
id. at 631-32. In 1919 and 1927, Congress “prohibited future

Pet. App. 8a
The defendants argue that the 1907 Order was
invalid ab initio because Section 36 had already been
deeded to California. The factual premise of that
argument, however, is subject to question. The 1853
Act excluded any land “in the occupation or possession
of any Indian tribe,” 10 Stat. at 246-47, and the Kelsey
survey, adopted by the Secretary, documents that
Section 36 falls in that exception. The district court
erred in excluding the Kelsey report as hearsay. It is
plainly admissible as an ancient document, Fed. R.
Evid. 803(16), which may contain multiple levels of
hearsay. 30B Charles Alan Wright & Jeffrey Bellin,
Federal Practice & Procedure § 6935 (2018 ed.)
(“[E]xclusion of statements in qualifying ancient documents on the grounds that the author lacked firsthand
knowledge, or (relatedly) that the document contains
hearsay-within-hearsay should be rare.”). Review of
historical documents is typical—indeed often necessary—in cases involving the boundaries of Indian reservations. See, e.g., Idaho v. United States, 533 U.S.
262, 265-71 (2001).
But, as noted, we need not today decide the extent
of the 1853 land grant. “[E]xecutive orders must be
liberally construed in favor of establishing Indian rights,”

Confederated Tribes of Chehalis Indian Reservation v.
Washington, 96 F.3d 334, 340 (9th Cir. 1996), and are

“interpreted as the Indians would have understood
them,” Parravano, 70 F.3d at 544. Given the language
of the 1853 Act, the Kelsey report identifying Section
36 as land occupied historically by Indians, and the
express inclusion of Section 36 in the 1907 Order, the

changes in Indian reservations by executive order.” United States
v. S. Pac. Transp. Co., 543 F.2d 676, 686 & n.15 (9th Cir. 1976).
That prohibition plainly does not affect the 1907 Order.

Pet. App. 9a
Chemehuevi Tribe (and indeed, the Secretary of the
Interior) surely understood Section 36 to be within
the Reservation.
Nor can we conclude that the boundaries of the
Reservation as established in the 1907 Order were
later diminished. “We do not lightly infer diminishment
of reservations.” Confederated Tribes of Chehalis,
96 F.3d at 343-44. After 1927, Congress prohibited
any change to the boundaries of existing executiveorder reservations except by Congressional act. Act of
March 3, 1927, ch. 299, § 4, 44 Stat. 1347 (codified at
25 U.S.C. § 398d); see S. Pac. Transp., 543 F.2d at
686 & n.15. There is no such act removing Section 36
from the Chemehuevi Reservation.
The defendants also rely on a patent issued to
the Tribe by the Bureau of Land Management in 2010,
which excluded “[t]hose lands granted to the State of
California . . . on July 10, 1895”—the date on which
the government survey was finalized—”located
in . . . sec. 36, T. 5 N., R. 24 E.” But, as noted above, we
do not today adjudicate title. More importantly, because
the 2010 patent was issued over a century after the
Reservation was established, it provides no evidence
of the intent of the Executive or the understanding of
the Tribe in 1907. Nor can it, nor does it purport to,
diminish the Chemehuevi Reservation. The patent
cites the 1907 Order, then grants some of the land
covered by that order to the Tribe in trust—an issue
of ownership. It is silent as to the reservation status
of any land excluded from the patent.
We therefore conclude that Section 36 is within
the Chemehuevi Reservation and hence “Indian
country” under 18 U.S.C. § 1151(a).

Pet. App. 10a
B.

Can the Plaintiffs Sue Under § 1983?

California cannot enforce state law that regulates
—but does not prohibit—tribal members’ conduct
inside a reservation. Confederated Tribes of Colville
Reservation v. Washington, 938 F.2d 146, 147 (9th
Cir. 1991) (citing 18 U.S.C. § 1162; 28 U.S.C. § 1360).
The defendants concede that the citations at issue
involved regulatory laws and therefore could not be
issued against enrolled members of the Tribe within
the boundaries of the Reservation. See id. at 148.
But, they argue that even such citations cannot be
the subject of a § 1983 action.
We disagree. Section 1983 allows any “person” to
sue for the “deprivation of any rights, privileges, or
immunities secured by the Constitution and laws.” 42
U.S.C. § 1983. Because § 1983 “was designed to secure
private rights against government encroachment,” Inyo
Cty. v. Paiute-Shoshone Indians of the Bishop Cmty. of
the Bishop Colony, 538 U.S. 701, 712 (2003), tribal
members can use it to vindicate their “individual
rights,” but not the tribe’s “communal rights,” Skokomish Indian Tribe v. United States, 410 F.3d 506,
515-16 (9th Cir. 2005) (en banc). And, “traditional
section 1983 suit[s]”—for example, those challenging
an arrest on tribal land—seek to vindicate an “individual right.” See id. at 516 n.8 (citing Romero v.
Kitsap Cty., 931 F.2d 624, 627 n.5 (9th Cir. 1991)).
Bunim, Sansoucie, Ochoa, and Lopez’s claims are
“traditional” § 1983 suits. Each was stopped and
detained by a San Bernardino County Deputy; some
had their vehicles seized. They contend that their
detentions and citations violated the Constitution
and federal statutes. They have a cause of action
under § 1983 against the defendants.

Pet. App. 11a
The Tribe, however, does not have a § 1983 claim.
An Indian tribe “may not sue under § 1983 to vindicate”
a “sovereign right,” such as its right to be free of
state regulation and control. Inyo Cty., 538 U.S. at
712. Nor can the Tribe assert its members’ individual
rights as parens patriae in a § 1983 action. To assert
parens patriae standing, the Tribe would have to
“articulate an interest apart from the interests of
particular private parties,” i.e., “be more than a nominal
party,” and “express a quasi-sovereign interest.”
Missouri ex rel. Koster v. Harris, 847 F.3d 646, 651
(9th Cir. 2017). That requirement is inconsistent with a
§ 1983 action: quasi-sovereign interests are not individual rights.
III. CONCLUSION
The Chemehuevi Reservation, as established by
the 1907 Order, includes Section 36. Section 36 is
therefore Indian country, and San Bernardino County
does not have jurisdiction to enforce California regulatory laws within it. The individual plaintiffs may
bring § 1983 claims against the defendants. The
Tribe, however, cannot assert its sovereign rights
under that statute.4
AFFIRMED in part, VACATED and REMANDED
in part. Each party shall bear its own costs.

4 We take no position on any defenses, including immunity, the
defendants might have to the claims raised by the individuals.

Pet. App. 12a
ORDER RE DEFENDANTS’ MOTION
FOR SUMMARY JUDGMENT [57] AND
PLAINTIFFS’ MOTION FOR PARTIAL
SUMMARY JUDGMENT [61]
(SEPTEMBER 5, 2017)
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
________________________
CHEMEHUEVI INDIAN TRIBE, ET AL.,

Plaintiffs,
v.
JOHN McMAHON, ET AL.,

Defendants.

________________________

Case No.: ED-CV-15-1538-DMG (FFMx)
Before: Dolly M. GEE, United States District Judge.
On August 4, 2015, Plaintiffs Chemehuevi Indian
Tribe, Chelsea Lynn Bunim, Tommie Robert Ochoa,
Jasmin Sansoucie, and Naomi Lopez filed their
First Amended Complaint (“FAC”) against Defendants
John McMahon (County Sheriff) and Ronald Sindelar
(Deputy Sheriff), who are sued in their official capacities. [Doc. # 11.] Plaintiffs seek monetary damages,
as well as declaratory and injunctive relief, on the
grounds that (1) Defendants violated Public Law 280,
18 U.S.C. § 1162, and 28 U.S.C. § 1360 by issuing motor
vehicle citations without jurisdiction on reservation

Pet. App. 13a
land; (2) Defendants interfered with tribal self-government; (3) state authority is preempted; and (4)
Defendants violated their civil rights. Id.
On August 16, 2016, the Court granted Plaintiffs’
motion for a preliminary injunction, finding in part
that “Plaintiffs have raised at least serious questions
going to the merits of their claim that Section 36 is
Indian country.” Aug. 16, 2016 Order at 13 [Doc. # 51];
see also id. at 2 (“The piece of land where San Bernardino County Sheriff’s deputies issued at least three of
the citations is a one square mile plot of land known
as Township 5N, Range 24E, SBM, Section 36 (‘Section
36’).”).
The Court will refer to the land at issue in this
case as Section 36 or “Section 36 of T. 5 N., R. 24 E.”
This Section 36 must be distinguished from other
areas also demarcated as “Section 36” located in other
fractional townships, such as T. 6 N., R. 24 E.
On June 2, 2017, Defendants filed a motion for
summary judgment on the issue of whether Section
36 is within Indian country as defined in 18 U.S.C.
section 1151(a). (“Def. Mot.”) [Doc. # 57.] Whether
Section 36 falls within Indian country determines
whether Defendants had jurisdiction to issue motor
vehicle citations to members of the Tribe on that
piece of land and is dispositive of the FAC’s first
three causes of action. Defendants’ summary judgment
motion also seeks to dispose of Plaintiffs’ section
1983 claim.
Plaintiffs subsequently filed a motion for partial
summary judgment on the issue of whether Section 36
falls within the Chemehuevi Indian Reservation or is
Indian country, or both. (Pl. Mot.”) [Doc. # 61.] Plaintiffs

Pet. App. 14a
do not move for summary judgment on the section
1983 claim “because of the evidentiary requirements
for that claim and the likelihood that the Tribe would
need to engage in extensive discovery.” Id. at 2 n.3.
Having duly considered the parties’ written submissions, the Court GRANTS Defendants’ summary
judgment motion in full, and DENIES Plaintiffs’ motion
for partial summary judgment.
I. FACTUAL BACKGROUND
The Court sets forth the material facts. Unless
otherwise indicated, the following facts are uncontroverted.
The Chemehuevi Tribe is a federally recognized
Indian tribe. Defendants’ Statement of Genuine
Disputes of Material Fact (“Def. SGDMF”) ¶ 1 [Doc.
# 63.] The Tribe is the beneficial owner of the Chemehuevi Indian Reservation (“the Reservation”), which
consists of approximately 32,487 acres of trust land
located in San Bernardino County, California. Id. ¶ 3.
This land is within and adjacent to the Chemehuevi
Valley. Id. ¶ 4.
A.

Relevant Statutes and Orders
1. The 1853 Act

On March 3, 1853, Congress passed legislation
(“1853 Act”) that conveyed to the State of California
Sections 16 and 36 in each township for public school
purposes. 10 Stat. 244, ch. 145, § 6; Pl. Ex. 3; see also
United States v. Southern Pacific Transp. Co., 601
F.2d 1059, 1061 (9th Cir. 1979) (stating the 1853 Act
“established the United States’ public lands system
for California, a newly admitted state”); Def. SGDMF

Pet. App. 15a
¶ 7 (“The 1853 Act reserved (2) sections, sections 16
and 36, within each township to be granted to the
State for school purposes.”). The 1853 Act did not
establish the boundaries of the Chemehuevi Reservation. See Plaintiffs’ Statement Genuine Disputes of
Material Fact (“Pl. SGDMF”) ¶ 1 [Doc. # 64-2.]
Section 6 of the 1853 Act does contain additional
language that the Court will refer to as the “Occupation
Provision”: it states that the Act “shall not be construed
to authorize any settlement to be made on any tract
of land in the occupation or possession of any Indian
tribe, or to grant any preemption right to the same.”
Def. SGDMF ¶ 5; see also Pl. Ex. 3.
Section 7 of the 1853 Act goes on to state “[t]hat
where any settlement . . . shall be made upon the
sixteenth and thirty-six sections, before same shall
be surveyed, or where such sections may be reserved
for public uses . . . , other land shall be selected by
the proper authorities of the State in lieu thereof. . . . ”
Def. SGDMF ¶ 9.
According to Plaintiffs, the Occupation Provision
and Section 7 of the 1853 Act essentially mean that
“[w]here a section 16 or 36 was in the occupation or
possession of an Indian tribe, the 1853 Act provided
that the State had the right to select lands in the
public domain in lieu of section 16 or 36, to sell the in
lieu lands, and to use proceeds from the sale to purchase other land within the State to build schools.” Id.
Defendants dispute Plaintiffs’ reading of the 1853
Act’s Occupation Provision and Section 7. Id.

Pet. App. 16a
2. Mission Indian Relief Act of 1891
On January 12, 1891, Congress enacted the Mission Indian Relief Act (“MIRA”), which authorized the
Secretary of the Interior of the United States (“the
Secretary”) to oversee the establishment of new reservations for Mission Indians1 residing in California. 26
Stat. 712, ch. 65 (1891); Pl. Ex. 7; Pl. SGDMF ¶ 3. This
involved the Secretary’s appointment of commissioners to propose reservation sites. 26 Stat. 712, ch. 65
§§ 1, 2.; Def. SGDMF ¶ 15. These selected sites would
then become “valid when approved by the President
and the Secretary of the Interior.” 26 Stat. 712, ch.
65 § 2. MIRA instructed that “if no valid objection
exists, [the Secretary] shall cause a patent to issue
for each of the reservations selected by the commission.” Id. § 3.
Yet, MIRA explicitly constrained the Secretary
of the Interior from issuing patents for lands where
valid ownership rights have attached:
[N]o patent shall embrace any tract or tracts
to which existing valid rights have attached
in favor of any person under any of the
United States laws providing for the disposition of the public domain, unless such person
shall acquiesce in and accept the appraisal
provided for in the preceding section in all
respects and shall thereafter, upon demand
1 Although Defendants note that members of the Chemehuevi
Tribe may not ethnically be Mission Indians, Congress and the
Department of the Interior treated the Chemehuevi as Mission
Indians for the purposes of MIRA. See Aug. 16, 2016 Order at 9
n.9 (“The parties do not dispute that the Congressional acts
mentioned supra apply to the Chemehuevi Tribe in this case.”).

Pet. App. 17a
and payment of said appraised value, execute
a release of all title and claim thereto; and
a separate patent, in similar form, may be
issued for any such tract or tracts, at any
time thereafter.

Id. Defendants assert that on July 10, 1895, the fed-

eral government surveyed the subject land within
Section 36 and granted it to the State of California as
school sections. Pl. SGDMF ¶ 5.2
3. 1907 Secretarial Order

On December 27, 1906 and January 3, 1907, C.E.
Kelsey, who was appointed special agent to the
Commissioner of Indian Affairs for the purpose of
reporting on the condition of American Indians in
California, issued reports concerning the Chemehuevi
Indian Tribe, which resided on the lands in the
Chemehuevi Valley along the Colorado River. Def.
SGDMF ¶¶ 17–18; Pl. Exs. 9, 10. Notably, in his January 3, 1907 report to the Commissioner of Indian
Affairs, Kelsey stated: “These [Chemehuevi] Indians
regard their present location as their place of origin.
I believe there is no question but they have occupied
this land since primeval times.” Pl. Ex. 10. He then
identifies certain lands that should be set aside for the
Chemehuevi Indians on the Colorado River reservation:
T. 4 N. R. 25 E., T. 4. N. R. 26 E., T. 5. N. R. 25 E.,
2 Plaintiffs dispute Defendants’ characterization that Section 36
was “ceded” to the State of California. As the Court will discuss
later, Plaintiffs argue that the Occupation Provision of the 1853
Act “specifically withdrew from settlement and protected from
white encroachment any tract of land in the occupation or
possession of any Indian tribe”—this includes Section 36. Pl.
SGDMF ¶ 5.

Pet. App. 18a
6. N. 25 E.[,] the E. 1/2 of T. 5.N. R. 24
E.[, and] Sections 25, 26, 35, and 36 of T. 6 N.,
R. 24 E.[,] and possibly a right of way for an
irrigating ditch through T. 7 N. R. 24 E.

Id. This January 3, 1907 report makes no specific

mention of the land at issue in this case: Section 36
of T. 5.N, R. 24 E. Nonetheless, the Court will interpret
the term “E. 1/2 of T. 5.N. R. 24 E. to mean the eastern
half of Township 5 North, Range 24 East. Section 36
lies within this township.3
In a later July 19, 1907 Report, Kelsey acknowledged that the Tribe had occupied the area along
the Colorado River since “time immemorial.” Def.
SGDMF ¶ 18; Pl. Ex. 2 at 2 (report from Kelsey to
Commissioner of Indian Affairs stating that “though I
have not been able as yet to visit that locality [the
Chemehuevi Valley on the Colorado River,] [t]his valley
is a deep low valley by the Colorado River and has been
occupied from time immemorial by the Chimehuevi
[sic] Indians.”); see also Pl. Ex. 19, David E. Lindgren,
Authority of Secretary to Determine Equitable Title
To Indian Lands, 1974 DOINA LEXIS 47 at 48, (“The
Chemehuevi Reservation was established in 1907 on
the ancestral homelands of the Chemehuevi Indians;
it included ‘a deep low valley (made) by the Colorado
River (which) has been occupied from time immemorial’ by the Tribe.”).
3 At the July 11, 2017 hearing on the motions for summary judgment, Plaintiffs argued that the term “E. 1/2 of T.5.N., R.24.E.” or
“E/2 of T.5.N., R.24.E.” means the “one half of Township 5 North
Range 24 East [, which] includes Section 36.” Hearing Tr. (7/11/17)
at 4. Defendants then orally stipulated that it is reasonable to
interpret “E/2” to mean the eastern half of T.5.N., R. 24.E., subject to their argument that Section 36 is not part of the Reservation.

Pet. App. 19a
In the December 27, 1906 and January 3, 1907
reports, Kelsey recommended that the lands the Tribe
occupied be added to the Colorado River Indian Reservation or, alternatively, be set aside and proclaimed as
a separate reservation for the Tribe upon passage of
a bill amending MIRA. Def. SGDMF ¶ 19; see infra
(amendment to MIRA). While both of these reports
mention section “36 of T. 6 N. R. 24 E” as being part
of the reservation, it makes no explicit mention of
Section 36 of T. 5 N. R. 24 E., the land at issue here.
See Pl. Exs. 9 and 10. They do reference the “east one
half of T. 5 N. 24 E.” or the “E. 1/2 of T. 5.N. R. 24 E.”

Id.

On January 31, 1907, relying upon Kelsey’s reports
and recommendations, the Commissioner of Indian
Affairs sent a letter to the Secretary of the Interior
requesting that he withdraw certain lands from
settlement and entry for the use or occupancy of twelve
separate bands of Mission Indians, including the Tribe.
Def. SGDMF ¶ 20. In particular, the Commissioner of
Indian Affairs identified Section 36 of T.6 N., R. 25 E.
as part of the “lands which [Kelsey] recommends be
withdrawn from all forms of settlement and entry
pending action by Congress whereby they may be added
to several reservations,” including the Tribe’s. Id.
¶ 21. The January 31, 1907 report did not specifically
identify the Section 36 at issue located at T. 5 N., R.
24 E., although it did reference the “E/2 of T. 5 N., R.
24 E.” Id.; Pl. Ex. 11 (“January 31, 1907 Report”).
On February 2, 1907, the Secretary of the Interior
issued a written Order (“1907 Order”), which included
a copy of the January 31, 1907 Commissioner’s Letter.
Id. ¶ 22. The 1907 Order stated that the Commissioner
identified lands in California, “which he recommends

Pet. App. 20a
be withdrawn from all form of settlement and entry,
pending action by Congress authorizing the addition
of lands described to the various Mission Indian
Reservations.” Pl. Ex. 12 (“1907 Order”) (emphasis
added) [Doc. # 61-5]. The 1907 Order then stated:
In view of the recommendation of the Indian
Office, I have to direct that the lands referred
to [in the Commissioner’s Letter] be withdrawn from all form of settlement or entry
until further notice, also that local land officers
of the districts in which the said lands are
located, be advised of such withdrawal.
In this connection you [the Commissioner of
the General Land Office] are advised that the
Department on the 31st ultimo [sic] forwarded to Congress, with favorable recommendation, the draft of a bill to authorize the addition of certain lands to the Mission Indian
Reservations.”

Id. (emphasis added); Def. SGDMF ¶ 23.
The Secretary of the Interior did not cause a patent
to issue to the Chemehuevi Tribe, after the February
2, 1907 Order. Pl. SGDMF ¶ 9. Indeed, as explained
infra, no trust patent was issued to the Chemehuevi
Tribe until June 28, 2010. Id. ¶ 10.
4. Congressional Appropriations Act of March 1907
On March 1, 1907, Congress amended MIRA
through passage of an “Act Making Appropriations for
the Current and Contingent Expenses of the Indian
Department, for Fulfilling Treaty Stipulations with
Various Indian Tribes, and for Other Purposes, for
the Fiscal Year Ending June 13, 1908,” 34 Stat. 1015,

Pet. App. 21a
1022–1023 (“1907 Appropriations Act”). The 1907
Appropriations Act amended MIRA to:
authorize the Secretary of the Interior to
select, set apart, and cause to be patented
to the Mission Indians such tracts of public
lands of the United States, in the State of
California, as he shall find upon investigation
to have been in the occupation and possession
of Mission Indians, and now required and
needed by them. . . .

Id. (emphasis added); Pl. SGDMF ¶ 6.
The 1907 Appropriations Act excluded from the
scope of the lands to be selected, set apart, and caused
to be patented to the Mission Indians, “any tract or
tracts to which valid existing rights have attached in
favor of any person under any of the United States
laws providing for the disposition of the public domain”
absent consent by the rights holder to be included
within the selected lands. Pl. SGDMF ¶ 7.
In 1931, the Bureau of Indian Affairs produced a
grazing map of the lands identified in the 1907 Order,
entitled “Grazing Map, Chemehuevi Valley Indian
Reservation.” Pl. Ex. 14 (“Grazing Map”); Def. SGDMF
¶ 28 (citing Webb Declaration that the map is
“maintained in the files and records of the [BIA regional
office]” and identifying the physical location of the
different parcel sections at issue in this matter, i.e.,
Sections 30 and 36).4 In July 1931, the Bureau of
4 Defendants dispute “that the map accurately represents the
boundaries of the Reservation.” Def. SGDMF ¶ 28. Defendants,
however, offer no evidence to dispute the map’s accuracy and its
depiction of the lands. Defendants do object that the map is
irrelevant and hearsay. Defendants assert that map is “irrelevant”

Pet. App. 22a
Indian Affairs also produced a map entitled “Chemehuevi Valley Indian Reservation,” showing the location
of the lands identified in the 1907 Order. Pl. Ex. 15
(“Reality Office Map”); Def. SGDMF ¶ 29 (citing Webb
Declaration).5
5. 2010 Trust Patent
On June 28, 2010, the Bureau of Land Management (“BLM”) issued a trust patent to the Tribe. Pl.
SGDMF ¶ 10; Pl. Ex. 25 (“U.S. Trust Patent No. 042010-0007” (“2010 Trust Patent”). While the trust
patent acknowledges the Secretary’s February 2, 1907
Order, it expressly excluded Section 36 from the
Reservation just as the 1907 Order did:
WHEREAS, there has been deposited in the
Bureau of Land Management an order of
the Secretary of the Interior dated February 2,
1907, withdrawing from settlement and entry
because it is a “grazing map that simply evidences the opinion
of the Bureau of Indian Affairs and/or other governmental entities
regarding the grazing boundaries, and is only a legal conclusion.”
Def. Obj. ¶ 18 [Doc. # 66]. They also object that the map is hearsay
to the extent it “purports to prove the truth of the boundaries of
the Reservation.” The Court OVERRULES Defendants’ objections.
The map is relevant to Plaintiffs’ factual assertion regarding
the exterior boundaries of the Reservation. See Fed. R. Evid.
401. Moreover, as the Court stated in its August 16 Order, “Webb
has properly authenticated the documents as the custodian of
record for the BIA regional office. As such, these documents are
admissible either as business records maintained by the BIA
regional office or as public records.” Aug. 16 Order at 13 n.14
(citing Fed. R. Evid. 803(6) or 803(8)).
5 Defendants raise the same objections it raised to the grazing
map. Def. Obj. ¶ 19. The Court OVERRULES Defendants’ objections. See supra n.4.

Pet. App. 23a
the following described land:
San Bernardino Meridian, California Fractional townships T.4 N., R 25 E., T. 4 N., R. 26 E.,
T. 5 N., R. 25 E., T. 6 N., R. 25 E., the E/2 of T.
5 N., R. 24 E., and secs. 25, 26, 35, and 36 of T.
6 N., R. 24 E.6
and
WHEREAS, an Order of the Authorized
Officer of the Bureau of Indian Affairs is
now deposited in the Bureau of Land Management, directing that, pursuant to the Act of
January 12, 1891 (26 Stat. 712), as amended
by the Act of March 1, 1907 (34 Stat. 1015),
and other acts, a trust patent issue to the
Chemehuevi Tribe of Mission Indians
(“Tribe”) for the above described lands excluding the following lands and subject to any
existing valid rights associated therewith . . .
3.

Those lands granted to the State of California
as school sections on July 10, 1895, located in
sec. 36, T. 4 N., R. 25 E and sec. 36, T. 5 N.,
R. 24 E. . . .

2010 Trust Patent at 2 (emphasis added). The land
immediately south of Section 36 does not consist of
Reservation land, but rather is Bureau of Reclamation
land managed by the Bureau of Land Management. Pl.
SGDMF ¶ 12.7
6 These lands mirror the fractional townships identified in the
February 1907 Order. See Pl. Ex. 11 [Doc. # 61-5 at 48].
7 The Court OVERRULES Plaintiff’s relevance objection to this
fact—it goes to the issue of whether Section 36 is Indian
country. See Doc. # 64-1.

Pet. App. 24a
6. The Traffic Stops
Individual Plaintiffs Bunim, Ochoa, Lopez, and
Sansoucie are American Indians and enrolled members
of the Chemehuevi Tribe. Def. SGDMF ¶¶ 52, 55, 58,
62. Defendant John McMahon is the Sheriff of San
Bernardino County. Id. ¶ 49. Defendant Ronald
Sindelar is Deputy Sheriff for the County. Id. ¶ 51.
From February 14, 2015 to March 15, 2015, Defendants
or their agents issued citations to individual Plaintiffs
for various California Vehicle Code violations, including
driving without a valid registration and driving with
a suspended license. Id. ¶¶ 53–64. Defendants stopped
Bunim and Sansoucie while they drove within Section
36. Id. ¶¶ 53, 59. Defendants stopped Lopez while
she drove on trust land within the Reservation, but not
within Section 36. Id. ¶ 63. The parties dispute whether
Defendants stopped and pulled Ochoa over within
Section 36 or on trust land within the reservation. Id.
¶ 56; see also Declaration of Ron Sindelar (“Sindelar
Decl.”) ¶ 9–10 (observed violation while Ochoa passed
through intersection within Section 36, but conducted
traffic stop on Havasu Lake Road, between the crossstreets of Lake Boulevard and Smith Road).
II. REQUESTS FOR JUDICIAL NOTICE
The parties submitted requests for judicial notice
of various documents. The Court addresses below only
the documents that it references throughout this Order.
The Court otherwise DENIES as moot Plaintiffs’ and
Defendants’ separate requests for judicial notice of
all other documents—the Court did not rely upon them
in reaching its conclusion. See infra, n.13.
The Court GRANTS Defendants’ request for
judicial notice [Doc. # 58] of the following documents:

Pet. App. 25a
(1) the December 27, 1906 Letter from Kelsey to the
Commissioner of Indian Affairs; (2) the January 3,
1907 Letter from Kelsey to the Commissioner of Indian
Affairs; (3) the January 31, 1907 Letter from the
Commissioner of Indian Affairs to the Secretary of
Interior; (4) the Final Survey for Township No. 5
North, Range No. 24 East, San Bernardino Meridian,
dated July 10, 1895 (“Land Survey”); and (5) the 2010
Trust Patent. See Lee v. City of Los Angeles, 250
F.3d 668, 689 (9th Cir. 2001) (“A court may take judicial
notice of ‘matters of public record.’”).
The Court also GRANTS Plaintiffs’ request for
judicial notice [Doc. # 61-8] of the following document:
the February 2, 1907 Order. In ruling on both motions,
the Court relied primarily on the exhibits Plaintiffs
submitted.8
III. LEGAL STANDARD
Summary judgment should be granted “if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a); accord
Wash. Mut. Inc. v. United States, 636 F.3d 1207, 1216
(9th Cir. 2011). Material facts are those that may affect
the outcome of the case. Anderson v. Liberty Lobby,
8 On June 29, 2017, the Court ordered Plaintiffs to submit a
declaration authenticating the 25 exhibits filed in connection
with their motion for partial summary judgment. [Doc. # 75.]
Defendants filed an objection to Plaintiffs’ failure to submit a
declaration, arguing that Plaintiffs now have “waived their
right to authenticate these exhibits.” See Doc. # 79. Defendants’
objection is OVERRULED. The Court subsequently issued a
clarification order and Plaintiffs have since complied with the
Court’s requests. See Doc. ## 80, 81.

Pet. App. 26a

Inc., 477 U.S. 242, 248 (1986). A dispute is genuine “if

the evidence is such that a reasonable jury could
return a verdict for the nonmoving party.” Id. The
moving party bears the initial burden of establishing
the absence of a genuine issue of material fact. Celotex
Corp. v. Catrett, 477 U.S. 317, 323 (1986).
Once the moving party has met its initial burden,
Rule 56(c) requires the nonmoving party to “go beyond
the pleadings and by her own affidavits, or by the
‘depositions, answers to interrogatories, and admissions
on file,’ designate ‘specific facts showing that there is
a genuine issue for trial.’” Celotex, 447 U.S. at 324
(quoting Fed. R. Civ. P. 56(c), (e) (1986)); see also
Norse v. City of Santa Cruz, 629 F.3d 966, 973 (9th
Cir. 2010) (en banc) (“Rule 56 requires the parties to
set out facts they will be able to prove at trial.”). “In
judging evidence at the summary judgment stage, the
court does not make credibility determinations or weigh
conflicting evidence.” Soremekun v. Thrifty Payless,
Inc., 509 F.3d 978, 984 (9th Cir. 2007). “Rather, it
draws all inferences in the light most favorable to the
nonmoving party.” Id.
Issues of law may be resolved by summary judgment. Asuncion v. District Director of U. S. Immigration
and Naturalization Service, 427 F.2d 523, 524 (9th Cir.
1970). Whether Section 36 is Indian country is a
question of law. See United States v. Sohappy, 770
F.2d 816, 822 n.6 (9th Cir. 1985) (“The issue of what
constitutes Indian country is properly a matter for
the judge and not the jury.”); see also United States v.
Roberts, 185 F.3d 1125, 1139–40 (10th Cir. 1999).

Pet. App. 27a
IV. DISCUSSION 9
A.

Section 36 Is Not Within the Reservation

In their motion for partial summary judgment,
Plaintiffs argue that the 1853 Act “created the
Reservation, but did not define its boundaries,” and
that the 1907 Order “established the exterior boundaries of the Reservation.” Pl. Mot. at 2–3. Defendants oppose Plaintiffs’ reading of the statutes, and
argue that it was not until 2010, when the Bureau of
Land Management issued a trust patent to the Tribe,
that the federal government established the boundaries
of the Reservation. Def. Opp. at 2–9 [Doc. # 62.] It is
uncontroverted that as of 2010, the federal government
had established the boundaries of the Reservation. A
comparison of the 2010 Trust Patent’s description of
the lands withdrawn from settlement to the relevant
lands described in the 1907 Order reveal that they
are identical. Compare 2010 Trust Patent at 2, with
January 31, 1907 Report at 2.
Nonetheless, Plaintiffs contend that “Section 36
was expressly included within the boundaries of the
Reservation by the 1907 Order.” Pl. Mot. at 3 (emphasis
added); see also Pl. Reply at 18 (“Section 36 was
expressly reserved and set aside for the Tribe by the
1907 Order. See 1907 Order [Section 36 was “withdrawn from all form of settlement or entry. . . . ”].”).
The Court disagrees that Section was expressly
included. Nothing in the 1907 Order—or the January
9 Defendants make various objections to Plaintiffs’ evidence. The
Court responds to objections to evidence only where such evidence is relied upon in the Court’s ruling. Plaintiffs make only
one evidentiary objection to Defendants’ evidence, which the
Court already addressed. See supra, n.7.

Pet. App. 28a
31, 1907 Report it incorporated—expressly states
that Section 36 of T. 5 N., R. 24 E. is within the boundaries of the Reservation. Indeed, the 1907 Order does
not even specifically refer to or mention Section 36 of
T. 5 N., R. 24 E. Still, Plaintiffs argue that Section 36
is implicitly included by the 1907 Order’s reference to
“E/2 of T. 5 N., R. 24 E.”
Notwithstanding that reference, Plaintiffs offer
no authority to support their position that the 1907
Order could withdraw lands from settlement—and
include as part of any Indian Reservation—those lands
previously conveyed to the State of California. Instead,
Plaintiffs contend that Section 36 never belonged to
California to begin with because the land was subject
to the Tribe’s aboriginal title. According to them, the
Occupation Provision of the 1853 Act not only created
the Reservation but actually “prohibited the United
States from conveying Section 36 to the State for
school purposes, required the State to select in lieu
lands in place of Section 36 or, in the alternative, if
the conveyance of Section 36 was valid to the State,
subjected the State’s title to the aboriginal Indian
title of the Tribe.”10 Pl. Reply at 3 [Doc. # 71.]; see
10 Plaintiffs’ position regarding California’s ownership interest
in Section 36 contradicts the position they took in their previous
motion for preliminary injunction, wherein Plaintiffs explicitly
disavowed any challenge to California’s ownership of Section
36, because “they are not required in order to stop the specific
harm at issue in this case—the unlawful citation, prosecution,
and racial profiling of tribal members.” Pl. Supp. Br. at 11 (“All
the Tribe and the Indians are seeking is a determination that
the Vehicle Code cannot be enforced against tribal members
who drive the one-half mile of road through Section 36 from one
portion of trust land to another. Such a finding requires only a
determination that Section 36 is Indian country.”) [Doc. # 28].

Pet. App. 29a

also Pl. Opp. at 15 (“the 1853 statute expressly recog-

nized the Tribe’s aboriginal title to Section 36 and
that the conveyance by the United States of Section 36
to the State of California for school purposes took
subject to the Tribe’s aboriginal title or right of
occupancy”). Plaintiffs further assert that the language
in the 2010 Trust Patent stating that the exclusion of
Section 36 from the patent was “subject to any existing
valid rights,” refers to the “Tribe’s aboriginal title to
Section 36” as recognized by the Occupation Provision.
Id. at 2, 18.
The Occupation Provision does not authorize
settlement on land occupied by or in possession of
any Indian Tribe: “this act shall not be construed to
authorize any settlement to be made on any tract of
land in the occupation or possession of any Indian
tribe, or to grant any preemption right to the same.”
See Pl. Ex. 3 at 3–4. But as Defendants correctly
point out, Plaintiffs fail to offer any admissible evidence that the Tribe currently occupies or is in
possession of the one square mile expanse of land
that makes up Section 36.
Plaintiffs’ current position regarding the federal government’s alleged invalid conveyance of Section 36 to the State of
California is not only contrary to Plaintiffs’ previous position,
but raises Rule 19 concerns. See Fed. R. Civ. P. 19. The Court
previously found that even though the State of California was
not a party to the action, Rule 19 did not require dismissal in
part because “Plaintiffs do not deny that California has an ownership interest in Section 36,” and that its interests could be
adequately represented on the issue of whether state or local
governments could enforce traffic laws on the land. Aug. 16,
2016 Order at 6. The Court may have found otherwise had it
known that Plaintiffs would be directly challenging the State of
California’s or other persons’ ownership interests in Section 36.

Pet. App. 30a
What is more, they fail to offer admissible evidence
that the Tribe occupied or possessed Section 36 during
the time of the 1853 Act or the 1907 Order’s passage,
such that it could not be validly conveyed to the State
of California. To be sure, Plaintiffs present evidence
of general statements in Kelsey’s July 10, 1907 Letter
that the Tribe has occupied the “deep low valley by
the Colorado River” since “time immemorial” or “since
primeval times.” See Pl. Ex. 2. The Court finds, however, that Kelsey did not have personal knowledge to
make these broad factual assertions, especially as
they concern Section 36—he himself admits he “ha[s]
not been able as yet to visit that locality” located in
the Chemehuevi Valley on the Colorado River. Plaintiffs
have not otherwise laid any foundation for Kelsey’s
statements. Kelsey’s statements are further confounded
by the fact that he goes on to state that “[t]he
[Chemehuevi] Indians are counted among the Indians
of the Colorado River reservation, though they have
never lived there.” See id. at 2 (emphasis added).
To the extent Kelsey’s assertion regarding the
Tribe’s occupation of the land in question is based on
what members of the Tribe told him—”These
[Chemehuevi] Indians regard their present location as
their place of origin”—it is inadmissible hearsay.11
Perhaps most significantly, Kelsey makes no specific
reference in the July 10, 1907 Letter to the Tribe’s
alleged occupation of Section 36 or lands located on
the eastern half of T. 5 N., R. 24 E.
11 While it could be said that, as a matter of general knowledge,
Native Americans occupied large swaths of the United States,
let alone Section 36, “for time immemorial,” that is not a sound
evidentiary basis upon which to base a ruling on a summary
judgment motion in a court of law.

Pet. App. 31a
At the July 11, 2017 hearing, Plaintiffs argued
certain “survey notes” that they “believe [is] in the
record”—and “think the County actually offered it” as
evidence— show that the 1895 surveyors of the lands
at issue “saw Indians . . . on the hill.” Hearing Tr.
(7/11/17) at 16. The Court reviewed the documents
submitted as part of Defendants’ Request for Judicial
Notice. They did not seek judicial notice of any survey
notes referencing “Indians on the hill.” The only 1895
document in Defendants’ RJN consists of the Land
Survey, which is a map with limited notations. See
Doc. # 58 at 14–16. Plaintiffs also did not include any
1895 surveyor notes in its exhibits binder in connection
with its summary judgment motion. Even if the Court
were to accept Plaintiffs’ representation that the 1895
land surveyors saw “Indians on a hill,” that vague
statement is not enough to establish that the Tribe
occupied or possessed Section 36 such that it could
not be validly conveyed to the State of California.12

12 At oral argument, Plaintiffs repeatedly invoked Minnesota v.
Hitchcock, 185 U.S. 373 (1902). According to Plaintiffs, the Supreme
Court in Hitchcock “[held] grants of Section 16 and 36 ‘[were] of
public lands’ . . . and therefore, lands encumbered by Indian
aboriginal title were not available for selection” by the state. Pl.
Opp. at 10 (citing Hitchcock, 185 U.S. at 391). The Supreme
Court has indeed recognized that “Indian nations held ‘aboriginal title’ to lands they had inhabited from time immemorial”
and that “no one could purchase Indian land or otherwise
terminate aboriginal title without the consent of the sovereign
[Federal Government].” Oneida Cty., N.Y. v. Oneida Indian
Nation of New York State, 470 U.S. 226, 233–34 (1985). Yet, as
discussed supra, Plaintiffs have failed to offer admissible evidence that the Tribe inhabited Section 36 “from time immemorial,”
much less during the time that Congress conveyed Section 36 to
the State of California. Moreover, as Defendants point out,

Pet. App. 32a
In short, the Court finds that generalized statements from high-ranking government officials that
the Tribe occupied certain lands since “time immemorial” inadmissible evidence for the purposes of
supporting Plaintiffs’ motion for partial summary
judgment as to the status of Section 36 or creating a
triable issue of fact in opposition to Defendants’ summary judgment motion. As such, the Court rejects
Plaintiffs’ argument that the Occupation Provision of
the 1853 Act invalidates the conveyance of Section 36
to the State of California.
Accordingly, because Section 36 is not part of the
Reservation, the Court DENIES Plaintiffs’ motion for
partial summary judgment and GRANTS Defendants’
summary judgment motion as to that issue.13
B.

Section 36 Is Not Within the Definition of Indian
Country

The Court incorporates herein its discussion of
18 U.S.C. section 1151(a) and California’s jurisdicHitchcock did not involve the creation of reservations under the
Mission Indian Relief Act. See Def. Reply at 3 [Doc. # 68].
13 During its examination of the “serious questions” factor in its
August 16, 2016 Preliminary Injunction Order, the Court stated
that Section 36 is not part of the Reservation because the
“Secretary must issue a trust patent to delineate the boundaries
of the Reservation.” See Aug. 16, 2016 Order at 11–12. For the
purposes of this Order, the Court need not reach the question of
whether a trust patent must issue to establish the Reservation
or whether the Reservation existed even prior to the issuance of
the trust patent. The salient fact is that 1853 Act conveyed
Section 36 to the State of California—thus, the Secretary could
not include that land within the Reservation under the 1907
Order.

Pet. App. 33a
tion over Indian country from its August 16, 2016
Order. Aug. 16, 2016 Order at 8–9.
In addition to “all land within the limits of any
Indian Reservation,” 18 U.S.C. § 1151(a), Indian
country also includes:
(b) all dependent Indian communities within
the borders of the United States whether
within the original or subsequently acquired
territory thereof, and whether within or
without the limits of a state, and (c) all
Indian allotments, the Indian titles to which
have not been extinguished, including rightsof-way running through the same.
18 U.S.C. § 1151. Defendants do not contest the general
assertion that they do not have jurisdiction to enforce
the California Motor Vehicle Code in Indian country.
The issue then becomes whether Section 36 is
Indian country, which is a question of law.
1. Section 1151(a): Exterior Boundaries of the
Reservation
The Court incorporates its discussion of Section
1151(a) and checkerboard jurisdiction from its August
16, 2016 Order. See Aug. 16, 2016 Order at 12–13.
In that prior Order, the Court stated that “[a]s
applied here, Section 36 is a landlocked parcel
surrounded on all sides by Chemehuevi Reservation
land, a near-perfect example of the type of checkerboard
jurisdiction the Supreme Court counseled against.”
Id. at 13 (citing Stan Webb Declaration).
Despite extensive briefing regarding Plaintiffs’
preliminary injunction motion, Defendants now for

Pet. App. 34a
the first time assert that because “Section 36 is
bordered on its south side not by reservation property,
but by Bureau of Reclamation land managed by the
Bureau of Land Management,” it is neither “landlocked”
nor within the exterior boundaries of the Reservation.
Def. Mot. at 11. Defendants fail, however, to cite evidence to support this proposition. Defendants do point to
the Grazing Map previously submitted by Plaintiffs
and upon which the Court relied in its August 16, 2016
Order. As it stands, this Grazing Map fails to identify
who owns the property directly south of Section 36.
The Court previously assumed that the outermost
edges of the land mass depicted in the Grazing Map,
with the exception of the Colorado River, comprised
the “Chemehuevi Valley Indian Reservation,” as the
map is titled.14 See 2016 Declaration of Stan Webb
¶ 9 (“The ‘Grazing Map’ and the ‘Map’ are both true
and accurate depictions of the location of the
boundaries of the Reservation as established by the
Secretarial Order and the official surveys of the United
States.”) [Doc. # 45-2].15

14 At oral argument during the March 18, 2016 Hearing on
Plaintiffs’ preliminary injunction motion, the Court asked
Defense counsel to assume that Section 36 is a “little circle” or
oasis surrounded by Reservation land. Defense counsel did not
object to that characterization and acknowledged the Court’s
visualization as “applying basic geography, geometry, . . . a circle
within a square.” Hearing Tr. dated Mar. 18, 2016.
15 Defendants also submit a request for judicial notice of a map
maintained by the BLM, which purportedly shows that “the
land immediately south of Section 36 does not fall within the
Reservation.” Def. RJN at 2, Ex. G (the BLM map) [Doc. # 58].
Yet, the Court finds that the BLM map is unclear as to the
location of Section 36 and what lies south of it. See id. at 55.

Pet. App. 35a
In order to obtain more precise visual clarification
regarding the exterior boundaries of the Reservation
and the lands surrounding Section 36, the Court
ordered Plaintiffs to submit a black and white copy of
another map of the Reservation on file in the records
of the Western Regional Office of the Bureau of Indian
Affairs in Phoenix, Arizona (“Realty Office Map”).
The Court then requested that BIA Realty Officer Stan
Webb make certain colored annotations to the map in
order to identify the Reservation’s exterior boundaries
and the location of Section 36. See Doc. # 75 (request
for supplemental information); 2016 Webb Decl. ¶¶ 1,
8. Plaintiffs complied.
Contrary to the Court’s previous understanding,
Webb’s recent declaration establishes that the land
South of Section 36 does not belong to the Reservation—
that land lies outside the Reservation’s exterior
boundaries. 2017 Declaration of Stan Webb ¶¶ 6–7,
Ex. C (annotated Realty Office Map).16 Plaintiffs themselves do not dispute that the land directly south of

The Court therefore DENIES Defendant’s RJN as to the purported BLM map.
16 Defendants object that Webb lacks foundation and personal
knowledge to authenticate the Reality Office Map or that he is
qualified to highlight appropriate portions of the exhibit. Def. Obj.
to Pl. Suppl. ¶¶ 33–35. The Court OVERRULES the objections.
See Webb Decl. ¶ 6 (“In my capacity as the Realty Officer I
supervised the collection of all title documents pertaining to the
creation of the Reservation and the conveyance of any right,
title or interest in any lands located within the boundaries of
the Reservation for the purpose of assisting the BLM in issuing
the Tribe a trust patent . . . for the lands owned by the United
States of American [sic] in trust for the Tribe within the
boundaries of the Reservation.”) [Doc. # 45-2].

Pet. App. 36a
Section 36 is Bureau of Reclamation land managed
by the BLM. Pl. SGDMF ¶ 12.
The newly annotated Reality Office Map thus
reveals that Section 36 abuts some edges of the exterior
boundaries of the Reservation as established by the
2010 Trust Patent. Webb’s yellow highlight delineating
the “Reservation Boundary at [sic] described in 2010
Trust Patent” appears to show that Section 36 is just
within the southern edge of the Reservation’s
boundaries. But as discussed supra, Section 36 is not
part of the Reservation. While Section 36’s northern,
western, and eastern sides directly border Reservation
land, its southern side does not. The southern edge of
Section 36, therefore, does not make up a boundary of
the Reservation. Rather, the Reservation’s boundaries
abut Section 36’s northern, western, and eastern
borders, which Webb delineates in pink highlighter.
See 2017 Webb Decl., Ex. C. Moreover, the non-Indian
land that borders Section 36’s southern end is, like
Section 36 itself, completely outside of the Reservation.
Ultimately, Section 36 consists of an indentation
located at the southern end of the Reservation. See
2017 Webb Decl., Ex. C attached hereto (copy of annotated Realty Office Map).
Given the evidence cited above, the Court must
correct its previous erroneous finding in its Aug. 16,
2016 Order that Section 36 is a landlocked parcel
surrounded on all sides by Reservation land. There are
no concerns with checkerboard jurisdiction in this
case. In fact, there is literally no checkerboard pattern
involving Section 36. Because Section 36 is not part
of the Reservation, lies just outside of the Reservation
and is not within its boundaries, the Court finds that

Pet. App. 37a
Section 36 is not Indian country as defined by
Section 1151(a).
2. Section 1151(b): Dependent Indian Communities
In order to qualify as a “dependent Indian community” under Section 1151(b), the lands at issue
must (1) have been set aside by the federal government
for use of Indians as Indian land, and (2) they must
be under federal superintendence. See Alaska v. Native
Vill. of Venetie Tribal Gov’t, 522 U.S. 520, 527 (1998).
To establish the set-aside element, “some explicit
action by Congress (or the Executive, acting under
delegated authority) must be taken to create or to
recognize Indian country.” Id. at 531 n.6. This “requirement ensures that the land in question is occupied by
an ‘Indian community.’” Id. at 531. The federal-superintendence element requires that the community be
“sufficiently ‘dependent’ on the Federal Government
that the Government and the Indians involved, rather
than the States, are to exercise primary jurisdiction
over the land.” Id.
Here, there is no evidence that the federal government took action to create or recognize Section 36
as Indian country. Indeed, the 2010 Trust Patent
excluded Section 36 from the patent issued to the
Tribe. The Court also rejects Plaintiffs’ argument
that the Occupation Provision of the 1853 Act recognized or reserved Section 36 as Indian country. See
supra, section IV.A; cf. Blunk v. Ariz. DOT, 177 F.3d
879, 883–84 (9th Cir. 1999) (“The Navajo Fee Land is
not a dependent Indian community because the land
was purchased in fee by the Navajo Nation rather than
set aside by the Federal Government.”)

Pet. App. 38a
Moreover, there is no evidence in the record that
members of the Tribe occupy any part of the one
square mile area of land that makes up Section 36 or
that “the land in question, and not merely the Indian
tribe inhabiting it . . . [is] under the superintendence
of the Federal Government.” See Venetie, 522 U.S. at
954 n.5. The 2010 Trust Patent itself acknowledges
that Section 36 was “granted to the State of California
as school sections,” and therefore could not be under
federal superintendence.
Because Section 36 does not satisfy the two elements for a dependent Indian community as described
in Venetie, the Court finds that Section 36 is not
Indian country as defined by Section 1151(b).
3. Section 1151(c): Indian Allotments
Plaintiffs do not argue that Section 36 should be
recognized as Indian country under Section 1151(c).
The Court therefore need not analyze the issue of
whether Section 36 is an Indian allotment, the title
to which has not been extinguished.
In sum, for the reasons discussed above, the Court
GRANTS Defendants’ summary judgment motion and
DENIES Plaintiffs’ partial summary judgment motion
because Section 36 is neither part of the reservation
nor Indian country. Thus, Defendants have jurisdiction
to engage in vehicle code enforcement within Section
36, and Plaintiffs’ first three claims in the FAC fail
as a matter of law.
C.

Section 1983 Claim

According to Defendants, Plaintiffs have not presented admissible evidence to support their allegations

Pet. App. 39a
that the deputies’ conduct of issuing citations to
Tribal members was racially motivated. Plaintiffs point
to two types of evidence in response: (1) evidence that
Defendants knew they did not have jurisdiction to
issue Vehicle Code citations to tribal members but
did so anyway, and (2) the practice that deputies
“positioned themselves for traffic stops in an area
within Section 36 in which only members of the Tribe
usually have occasion to drive.” Pl. Opp. at 20 [Doc.
# 64].
The Court finds that Plaintiffs have failed to raise
a triable issue of material fact as to their section
1983 claim. On the issue of the deputies’ knowledge,
Plaintiffs direct the Court’s attention to certain paragraphs within the declarations of Brian McDonald
and Charles Wood. Id. According to McDonald, an
enrolled member of the Tribe whose father was
issued a traffic citation by the County San Bernardino
Sheriff’s Department, he expressed his view to the
Sheriff’s Department and to two Deputy Sheriffs at a
Tribal Council meeting and through phone calls, that
Public Law 280 limited the County’s jurisdiction over
the Tribe. Declaration of Brian McDonald (“McDonald
Decl.”) ¶¶ 1, 6, 13–19 [Doc. # 28-4]. The Deputy Sheriffs
implied that they had a different understanding of
the jurisdictional issues. Id. ¶ 16. McDonald also
never received any responses to his phone calls. Id.
¶ 19. The Court fails to see how McDonald’s communications with the Sheriff’s Department and Defendants’ subsequent actions raise the specter of racial
animus sufficient to create a triable issue of fact that
Defendants violated Plaintiffs’ civil rights. Charles
Wood’s declaration on this issue does nothing more
than establish that he was at the Tribal Council

Pet. App. 40a
meeting with McDonald and observed McDonald raise
his concerns with the Deputies. See Declaration of
Charles Wood (“Wood Decl.”) ¶¶ 9–11 [Doc. # 28-1.
As to the issue raised by Plaintiffs that Defendants engaged in the practice of positioning themselves in areas where only Tribal Members drive in
order to issue citations only to Tribal Members, the
Court finds Plaintiffs’ evidence inadmissible.
Plaintiffs cite to paragraph 15 of the Wood Declaration. Pl. Opp. at 20–21. Wood, who is Chairman
of the Tribal Council of the Tribe, states that Defendants have targeted Tribal members for more aggressive enforcement of traffic laws and, as an example,
cites to Defendants’ “recent practice of pulling off to
the side of Lake Havasu Road and concealing their
patrol vehicles behind bushes (‘stakeout’) at a location
on the Reservation within Section 30, north of Section
36.” Wood Decl. ¶ 15. Defendants object to this
sentence as lacking foundation and personal knowledge. The Court SUSTAINS the objection. Wood’s
conclusory statement that he is “well-informed about
police practices” and is “familiar with overseeing and
disciplining law enforcement officers who exceed the
scope of their authority” is not enough to lay a foundation that he has personal knowledge of certain
deputies engaging in a “stakeout” and concealing their
vehicles for the purpose of then issuing tickets to
only Tribal members. See id. ¶ 7.
Defendants also object to Wood’s statement that
he “received at least two different verbal reports that
the Deputies are pulling into the private residences
of Tribal members living on the Reservation, north of
Section 36, and inspecting parked motor vehicles” as

Pet. App. 41a
hearsay. The Court SUSTAINS Defendants’ hearsay
objection.
Plaintiffs point to no other evidence in their
opposition that “could tend to show a pattern of
racial discrimination on the part of the Deputies.”
See Pl. Opp. at 20.
Notably, the Court stated in its August 16, 2016
Order:
To the extent Plaintiffs base their civil rights
claim on Defendants’ alleged racial profiling
of tribal members, the Court finds that
Plaintiffs have failed to raise serious questions or show a likelihood of success on the
merits. Their written submissions are entirely
devoid of any evidence that Defendants’
actions were racially motivated.
Aug. 16, 2016 Order at 13 n.15. Since then, Plaintiffs
have not submitted any new evidence related to their
section 1983 claim that the Court has not already
reviewed, and the time to do so has now passed. The
parties’ discovery cut-off expired on May 23, 2017.
[Doc. # 54-1.]
Because Plaintiffs have not presented any admissible evidence that could raise a triable issue of
material fact on their claims of racial discrimination,
the Court GRANTS Defendants’ summary judgment
motion as to the section 1983 claim.
V. CONCLUSION
In light of the foregoing, the Court DENIES
Plaintiffs’ motion for partial summary judgment on
the issue of whether Section 36 is within the boun-

Pet. App. 42a
daries of the Reservation or Indian country.17 The
Court GRANTS Defendants’ summary judgment
motion in its entirety. The Court will enter judgment
forthwith in favor of Defendants.
IT IS SO ORDERED.
/s/ Dolly M. Gee
United States District Judge
Dated: September 5, 2017

17 The Court recognizes that Plaintiffs’ arguments in this case were
heartfelt. It is for this reason that the Court expended much time
and effort reviewing the facts in the record to ensure that it
understood and took the full measure of Plaintiffs’ assertions. Ultimately, as it must in all of its decisions, this Court based its
ruling on a dispassionate assessment of the evidentiary record.

Pet. App. 43a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT DENYING
PETITION FOR REHEARING EN BANC
(SEPTEMBER 27, 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
CHEMEHUEVI INDIAN TRIBE, on its Own Behalf
and on Behalf of its Members Parens Patrie [sic]; et al.,

Plaintiffs-Appellants,
v.
JOHN MCMAHON, in His Official Capacity as
Sheriff of San Bernardino County;
RONALD SINDELAR, in His Official Capacity as
Deputy Sheriff for San Bernardino County,

Defendants-Appellees.

________________________
No. 17-56791

D.C. No. 5:15-cv-01538-DMG-FFM
Central District of California, Riverside
Before: WARDLAW and HURWITZ, Circuit Judges,
and KORMAN, District Judge.

 The Honorable Edward R. Korman, United States District Judge
for the Eastern District of New York, sitting by designation.

Pet. App. 44a
The panel has voted to deny the petition for
panel rehearing. Judge Wardlaw and Judge Hurwitz
vote to deny the petition for rehearing en banc, and
Judge Korman has so recommended.
The full court has been advised of the petition for
rehearing en banc and no judge has requested a vote
on whether to rehear the matter en banc. Fed. R. App.
P. 35. The petition for panel rehearing and rehearing
en banc, Dkt. 47, is DENIED.

